THE UNITED STATES SUPREME COURT

LISA GINDI

Petitioner /Moving Party

- against-

NEW YORK CITY DEPARTMENT OF
EDUCATION

Defendants/Appellees

THOMAS BENNETT, ET AL

Defendants

John Guyette, Zachary Shapiro
New York City Law Department-Counsel
OrianaVigliottiNYSUT counsel

Respondents

APPENDIX I

Lisa Gindi
Pro Se.
75-25 153 Street
Flushing, NY 11367

John Guyette,
Zachary Shapiro
NYC Law Department
100 Church Street
New York NY 10007

February 20, 2020.

Oriana Vigliotti
NYSUT
52 Broadway, 9th Floor

New York, NY 10004

Table Of Contents

Table of Contents

32 ( 1 of 2 pages )

SUMMARY ORDER Court of
Appeals Sept. 9, 2019

3-12

ORDER Denied Rehearing
Court of Appeals Sept. 25, 2019

13 (1 of 2)

MEMEORANDUM AND
ORDER District Court
January 20, 2016

14-29

JUDGEMENT District Court
Sept. 26, 2018

30 ( 1 of 2 )

MEMORANDUM AND ORDER
District Court September 26, 2018

31-53

** (Transcript of Oral Argument
Court of Appeals Sept. 3, 2019
(page numbered 4-13)
III")**

Page 2 (1 of 2)

2

is in"Appendix Part

**MANDATE issued on 10/02/2019same as Court of Appeals Summary
Order issued on Sept 9, 2019 including

Printed upper case lettering of the word**
"MANDATE" in red font. across the top pf page.

MANDATE short form order

October 24, 2019.

(cont'd "Table of Contents" page 2 OF 2)

3

54-55

Respectfully submitted, c

Lisa Gindi
Dated February 20, 2020

Lisa Gindi
75-25 153 Street
Flushing, New York 11367
Lisa_Gindi@yahoo.com
718-768-9084

56

4

GINDI v. NEW YORK CITY DEPARTMENT
OF EDUCATION
Email I Print I Comments (0)
No. 18-3057-cv.L/SA GINDI, PlaintiffAppellant, v. NEW YORK CITY
DEPARTMENT OF EDUCATION, DefendantAppellee.
United States Court of Appeals, Second Circuit.
September 9, 2019.

Attorney(s) appearing for the Case
LISA GINDI, pro se, Kew Garden Hills, NY, for
Plaintiff-Appellant.
ZACHARY S. SHAPIRO ( Jeremy W.
Shweder , on the brief), of Counsel, forZachary
W. Carter ,

Corporation Counsel of the City of New York,
New York, NY., for Defendant-Appellee.
PRESENT:• JOHN M. WALKER, JR.,
RAYMOND J. LOHIER, JR., SUSAN L.
CARNEY,

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION
TO A SUMMARY ORDER FILED ON OR
AFTER JANUARY 1, 2007, IS PERMITTED
AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT'S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A
4

PARTY MUST CITE EITHER THE FEDERAL
APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION "SUMMARY
ORDER"). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.

UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the District
Court is AFFIRMED.

Lisa Gindi, proceeding pro se, appeals from a
judgment of the District Court (Mauskopf, J.)
dismissing her employment discrimination

5

claims under Title VII, the Age Discrimination
in Employment Act (ADEA), and the Americans
with Disabilities Act (ADA). The primary issue
on appeal is whether the District Court properly
dismissed as untimely Gindi's claims against the
New York City Department of Education
(DOE).1 We assume the parties' familiarity with
the underlying facts and prior record of
proceedings, to which we refer only as necessary
to explain our decision to affirm.

We review de novo the dismissal of a complaint
pursuant to Rule 12(b)(6), accepting the factual
allegations of the complaint as true. Forest Park
Pictures v. Universal Television Network,
Inc., 683 F.3d 424, 429 (2d Cir. 2012). A pro
se complaint must be "liberally construe [d] . .
to raise the strongest arguments it

6

suggests." Abbas v. Dixon, 480 F.3d 636, 639 (2d
Cir. 2007). But pro se litigants are nonetheless
required to comply with the ordinary rules of
civil litigation. Caidor v. Onondaga Cty., 517
F.3d 601, 605 (2d Cir. 2008).

Plaintiffs asserting claims under Title VII, the
ADEA, or the ADA must first file a complaint
with the Equal Employment Opportunity
Commission (EEOC) or an equivalent state
agency within 300 days of the allegedly
discriminatory action. See 29 U.S.C. § 626(d)(1);
42 U.S.C. § 2000e-5(e)(1); 42 U.S.C. § 12117(a).
Although the filing deadline is subject to
equitable tolling, see Zerilli-Edelglass v. N.Y.C.
Transit Auth., 333 F.3d 74, 80 (2d Cir. 2003)

7

(Title VII and ADA); Belgrave v. Pena, 254 F.3d
384, 386 (2d Cir. 2001) (per curiam) (Title VII
and ADEA), the plaintiff must show that she
diligently pursued her rights and that
extraordinary circumstances prevented a timely
filing, see Zerilli-Edelglass, 333 F.3d at 80-81.

Gindi attached to her second amended complaint
an EEOC and New York State Division of
Human Rights (NYSDHR) charge dated
December 2, 2015. The District Court correctly
concluded that Gindi's claims of discrimination
against the DOE arising out of conduct that
occurred before February 5, 2015 (300 days
before the date of her complaint) were untimely.
Here, Gindi alleged that the DOE's
discriminatory actions occurred during her
employment as a teacher, which terminated in

8

June 2013, well outside the 300-day period. See
Flaherty v. Metromail Corp., 235 F.3d 133, 137
(2d Cir. 2000) ("[T]he time for filing a claim with
the EEOC [based on discharge] starts running
on the date when the employee receives a
definite notice of termination . . . ." (quotation
marks omitted)).

Urging a contrary conclusion, Gindi argues for
the first time on appeal that she attempted to
communicate with the EEOC as early as 2009,
but that she was prevented from filing a charge
for approximately six months. In support, Gindi
provides us with a letter she submitted to the
EEOC dated September 16, 2015, which was not
part of the district court record. Arguments
presented for the first time on appeal are

generally forfeited, even in cases involving pro
se litigants. See Zerilli-Edelglass, 333 F.3d at
80. But even if Gindi had properly preserved the
argument, we would still agree with the District
Court's conclusion that her complaint was
untimely because treating the September 2015
letter as an EEOC complaint would extend the
300-day period only to November 2014, well
after June 2013. In addition, Gindi's attempts to
contact the EEOC fall short of the extraordinary
circumstances necessary to warrant tolling of
the time within which to file an actual EEOC
complaint.2

Gindi also argues that the District Court denied
her a fair hearing. We disagree. The District
Court denied Gindi's motion for a pre-motion

9

conference as unnecessary, and Gindi has not
explained why a conference was required.
Relying on the Federal Rules of Civil Procedure,
moreover, Gindi argues that the District Court
violated Rule 60 by failing to decide the DOE's
motion to dismiss within one year. This
argument rests on a misunderstanding of Rule
60, which limits the time litigants have to seek
relief from a prior judgment, not the time a
district court has to decide a motion to
dismiss. See Fed. R. Civ. P. 60(c)(1). Finally, we
reject Gindi's claim of judicial bias, which rests
solely on the District Court's adverse
decisions. See Chen v. Chen Qualified
Settlement Fund, 552 F.3d 218, 227 (2d Cir.
2009) (stating that adverse rulings, without
more, do not provide a basis for a bias claim).

10

We have considered Gindi's remaining
arguments and conclude that they are without
merit. For the foregoing reasons, the judgment
of the District Court is AFFIRMED.

FootNotes

* The Clerk of Court is directed to amend the
official caption as shown above.
1. Gindi's appellate brief does not address the
following issues: the District Court's
dismissal of her claims against other
defendants; the District Court's holding that
her claims against the DOE did not
constitute a continuing violation; the
District Court's denial of further leave to
amend her complaint; or her challenges to
an arbitration decision that she appeared to
raise in her second amended complaint. We
11

therefore deem any challenges on these
grounds to be abandoned. See LoSacco v.
City of Middletown, 71 F.3d 88, 93 (2d Cir.
1995) ("[W]e need not manufacture claims of
error for an appellant proceeding pro se . . .

2. To be clear, the timeliness issue
concerns only the delay between the allegedly
discriminatory acts by DOE and Gindi's filing
of a formal complaint with the EEOC or a state
agency like NYSDHR.
12

Lase 18-i5u0-1, Document
09/25/2019, 2664689, Ngel of 1
UNITED STATES COURT OF
APPEALS FOR THE SECOND
CIRCUIT At a Stated Term of the
United States Court of Appeals for
the Second Circuit, held at the
Thurgood Marshall United States
Courthouse, 40 Foley Square, in the
City of New York, on the 25th day of
September, two thousand and
nineteen, Before: JOHN M.
WALKER, JR., RAYMOND J.
LOHIER, JR., SUSAN L. CARNEY
Circuit Judges.

Lisa Gindi, Plaintiff - Appellant
v. New York City Department of
Education, Defendant - Appellee.
ORDER Docket No. 1.8-3057
Appellant having filed a petition for
panel rehearing and the panel that
determined the appeal having

Page 13 ( 1 of 2

'considered the

request,. IT IS HEREBY ORDERED
that the petition is
DENIED. For The Court: Catherine
O'Ha.gan Wolfe,

Clerk of Court

Page 13 ( 2 of 2 )

Case 1:15-cv-06475-RRM-RER Document 4 Filed
02/01/16 Page 1 of 8 PagelD #: 15
UNITED STATES DISTRICT COURT EASTERN
DISTRICT OF NEW YORK
){
LISA GINDI, Plaintiff; - against MR. THOMAS BENNETT et al.,
Defendants.
ROSLYNN R. MAUSKORPF,
United States District Judge.
MEMORANDUM AND ORDER
1 5-CV-6475 (RRM)
Plaintiff Lisa Gindi, proceeding pro se, filed the
instant complaint alleging violations of Title VII of
the Civil Rights Act of 1964, 42 U.S.C. § 2000e et
seq. {"Title VII"), the Age Discrimination in
Employment Act, 29 U.S.C. § 621 et seq. ("the
ADEA"), and the Americans with Disabilities Act,
42 U.S.C. § 12101 et seq. ("ADA"). Along with her
14

complaint, plaintiff files a request to proceed in
forma pauperis pursuant to 28 U.S.C. § 1915.
Plaintiffs request to proceed in forma pauperis is
GRANTED solely for the purpose of the instant
order. Fort he reasons stated below, plaintiff is
GRANTED leave to file an amended complaint
within thirty (30) days of the date of this Order, or
the instant action shall be dismissed for failure to
state a claim upon which relief may be
granted. 28 U.S.C. § 1915(e)(2)(B).
BACKGROUND
Plaintiff is a former employee of the New York City
Department of Education. (Compl. (Doc. No. 1) at
4.) As best as can be ascertained from the
complaint, plaintiff was a tenured teacher from
1993 until sometime in 2013. (Id) Plaintiff alleges
that at some point during her employment she
informed her boss that she needed to take five days
off of work due to her
15

contested divorce, that her boss hit her because she
would not pass eighteen students who were failing
her class, and that she was fired with no just cause
in 2013. (Id)
Case 1:15-cv-06475-RRM-RER Document 4
Filed 02/01/16 Page 2 of 8 PagelD #: 16
Plaintiff brings causes of action for failure to hire,
termination of employment, failure to promote,
failure to accommodate a disability, unequal terms
and conditions ofemployment, and
retaliation. (Id at 3.) Plaintiff alleges defendants
discriminated against her because she is a white,
Jewish female, who is more than forty years of age.
(Id.) Regarding her disability, plaintiff states that
she has a lazy eye and suffers from stress due to
her divorce. (Id.)
STANDARD OF REVIEW A district court shall
dismiss an in-forma pauperis action when it is
satisfied that the
action "(i) is frivolous or malicious; (ii) fails to state
a claim
16

on which relief may be granted; or (iii) seeks
monetary relief against a defendant who is
immune from such relief." 28 U.S.C. §
1915(e)(2)(B). An action is "frivolous" when either:
(1) "the factual contentions are clearly baseless,
such as when allegations are the product of
delusion or fantasy"; or (2) "the claim is based on
an indisputably meritless legal theory." Livingston
v. Adirondack Beverage Co., 141 F.3d 434, 437 20
(2d Cir. 1998) (internal quotation marks omitted).
It is axiomatic that pro se complaints are held to
less stringent standards than pleadings drafted by
attorneys. The Court is required to read the
plaintiffs pro se complaint liberally and interpret
it as raising the strongest arguments it suggests.
Erickson v. Pardus, 551 U.S. 89 (2007); Hughes v.
Rowe, 449 U.S. 5, 9 (1980); Sealed Plaintiffv.
Sealed Defendant #1, 537 F.3d 185, 191-93 (2d Cir.
2008).
17

At the pleadings stage of the proceeding, the Court
assumes the truth of "all well-pleaded, non
conclusory factual allegations" in the complaint.
Kiobel v. Royal Dutch Petroleum Co., 621 F.3d 111,
123 (2d Cir. 2010). A complaint must plead
sufficient facts to "state a claim to relief that is
plausible on its face." Bell At/. Corp. v. Twombly,
550 U.S. 544, 570 (2007). "A claim has facial 22
plausibility when the plaintiff pleads factual
content that allows the court to draw the
Case 1:15-cv-06475-RRM-RER Document 4 Filed
02/01/16 Page 3 of 8 PagelD #: 17
reasonable inference that the defendant is liable
for the misconduct alleged." Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009). The plausibility standard
does not impose an across-the-board, heightened
fact pleading standard. Boykin v. KeyCorp, 521
F.3d 202, 23 213 (2d Cir. 2008). However, the
plausibility standard does impose some burden to
make factual allegations that support a claim for
relief. As the
18

Iqbal court explained, it"does not require detailed
factual allegations, but it demands more than an
unadorned, the-defendant-unlawfully-harmed-me
accusation." Iqbal, 556 U.S. at 678.
DISCUSSION I. The Administrative Claim
Generally, a claimant may bring suit in federal
court under the ADEA, Title VII, and the
ADA only after filing a timely complaint with the_
EEOC. Floyd v. Lord & Taylor, 96 F. App'x 792,
793 (2d' Cir. 2004) (upholding dismissal of a
complaint where plaintiff failed to submit any
documentation showing that she had filed a
complaint with the EEOC, a "prerequisite to
bringing suit in federal court under Title VII, the
ADEA, and the ADA"). To be deemed timely, the
administrative claim must be filed with the EEOC
or the state agency within 300 days of the alleged
discriminatory conduct.
19

42 U.S.C. § 2000e-5(e); 29 U.S.C. § 626(d)(1);
Kassner v. 2d Ave. Delicatessen Inc., 496 F.3d 229,
237 (2d Cir. 2007). This is true even of pro se
litigants. Tanvir v. New York City Health & Hosps.
Corp., 480 F. App'x 620, 621 (2d Cir. 2012).
However, the failure to file a timely complaint with
the EEOC is not necessarily fatal. A plaintiff can
overcome this deficiency by showing that she is
entitled to equitable tolling. See Fowlkes v. iron
workers Local 40, 790 F.3d 378, 385-86 (2d Cir.
2015) (holding that exhaustion of administrative
remedies is a precondition to bringing a Title VII
claim, rather than a jurisdictional requirement
and is subject to waiver, equitable estoppel, and
equitable tolling). To
Case 1:15-cv-06475-RRM-RER Document 4
Filed 02/01/16 Page 4 of 8 PagelD #: 18
warrant equitable tolling, a plaintiff must
demonstrate that extraordinary circumstances
beyond her control prevented her from filing her
20

administrative claim. Boos v. Runyon,
201F.3d178, 185 (2d Cir. 2000). Here, plaintiffs
complaint fails to 28demonstrate that she has filed
a charge with the EEOC concerning her
allegations of discrimination based on Title VII,
age, or disability. Plaintiff additionally f—ilsto offer
any basis for waiver, equitable estoppel, or
equitable tolling.
II. Sufficiency of the Pleading Even if plaintiffs
complaint was preceded by a timely-filed
administrative complaint, it fails to allege facts
sufficient to state a cause of action for employment
discrimination under Title VII, the ADA, or the
ADEA. a. Plaintiffs Title WI Claims
Title VII prohibits an employer from
discriminating against any individual with respect
to "compensation, terms, conditions, or privileges
of employment, because of such individual's race,
color, religion, sex or national origin." 42 U.S.C. §
2000e-2(a)(1). To establish a prima facie case of
21

discrimination, a plaintiff must show that: (1) she
is a member of a protected class, (2) she was
qualified for the position she held, and (3) she
suffered an adverse employment action (4) under
circumstances giving rise to an inference of
discrimination. Brown v. City of Syracuse, 673
F.3d 141, 150 (2d Cir. 2012); Sethi v. Narod, 12 F.
Supp. 3d 505, 522 (E.D.N.Y. 2014).
Here, the factual basis of plaintiffs Title VII
complaint is unclear. Her complaint fails to allege
sufficient facts to show that plaintiff suffered
discrimination because of her race, color, religion,
sex, or national origin. Thus, plaintiff has failed to
state a claim under Title VII. Case 1:15-cv-06475RRM-RER Document 4 Filed 02/01/16 Page 5 of 8
PagelD #: 19
b. Plaintiffs AREA Claims
The ADEA establishes that it is "unlawful for an
employer ... to discharge any individual or
otherwise discriminate against any individual
with respect to his compensation, terms, conditions
22

or privileges or employment, because of such
individual's age." 29 U.S.C. §623(a)(1).
Inordertoestablishaprimafaciecaseof
agediscrimination in violation of the ADEA,
plaintiff must show that: (1) she was within the
protected age group (more than 40 years old); (2)
she was qualified for her position; (3) she
experienced adverse employment action; and (4)
such action occurred under circumstances giving
rise to an inference of discrimination. Gorzynski v.
Jet Blue Airways Corp., 596 F.3d 93, 107 (2d Cir.
2010) (citing Carlton v. Mystic Transp. Inc., 202
F.3d 129, 134 (2d Cir. 2000)).
In support of her ADEA age discrimination claim,
plaintiff alleges that she is a member of a protected
age group, but does not plead any facts to support
an inference that the defendant discriminated
against her because of her age. At a minimum, an
ADEA claimant must inform the Court and the
23

defendant why she believes age discrimination
existed. See Dugan v. Martin Marietta Aerospace,
760 F.2d 397, 399 (2d Cir. 1985) ("While a claim
made under the ADEA need not contain every
supporting detail, it must at least inform the court
and the defendant generally of the reasons the
plaintiff believes age discrimination has been
practiced."); Gal/op- Laverpool v. 1199 SEIU
United Healthcare Workers E., No. 14-CV-2879,
2014 WL 3897588, at *2 (E.D.N.Y. Aug. 8, 2014).
Plaintiff simply asserts, without further
elaboration, that she is more than 40 years of age.
This is insufficient to state a claim under the
ADEA. Case 1:15-cv-06475-RRM-RER Document 4
Filed 02/01/16 Page 6 of 8 PagelD #: 20
c. Plaintiffs ADA Claims To establish a prima facie
case of discrimination under the ADA, a plaintiff
must show that "(1) the defendant is covered by the
24

ADA; (2) plaintiff suffers from or is regarded as
suffering from a disability within the meaning of
the ADA; (3) plaintiff was qualified to perform the
essential functions of the job, with or without
reasonable accommodation; and (4) plaintiff
suffered an adverse employment action because of
[her] disability or perceived disability."
Capobianco v. City ofNew York, 422 F.3d 47, 56 (2d
Cir. 2005); Ugactz v. United Parcel Serv., Inc., No.
10-CV-1247, 2013 WL 1232355, at *7 (E.D.N.Y.
Mar. 26, 2013).
Here, plaintiff asserts that the nature of her
disability is a lazy eye and stress due to her
divorce. Although plaintiff is not required to
establish discrimination at the pleading stage, she
must plausibly allege a claim upon which relief can
be granted. Vega v. Hempstead Union Free School.
Dist., 801 F.3d 72, 86-87 (2d Cir. 2015). Even under
the most liberal construction, the complaint
provides no facts that could possibly connect any
adverse employment action to a protected status.
Thus, plaintiff has failed to state a claim under the
ADA. See Ruston v. Town Bd. of
25

Skaneateles, 610 F.3d 55, 59 (2d Cir. 2010) ("Under
Iqbal, factual allegations must be sufficient to
support necessary legal conclusions," and must
"plausibly suggest an entitlement to relief.").
III. Individual Liability Finally, the Court notes
that plaintiff names as defendants individuals who
appear to be employed by the New York City
Department of Education. Title VII, the ADA, and
the ADEA do not permit the imposition of liability
on individuals in their individual or representative
capacities. Raspardo v. Carlone, 770 F.3d 97, 113
(2d Cir. 2014) (Title WI); Guerra v. Jones, 421 F.
App'x 15, 17 (2d Cir. 2011) (ADEA); Castro v. City
ofNew York, 24 F. Supp. 3d 250,
Case 1:15-cv-06475-RRM-RER Document 4 Filed
02/01/16 Page 7 of 8 PagelD #: 21
259 (E.D.N.Y. 2014) (ADA). Plaintiff has failed to
name her former employer as a defendant in this
action and she cannot recover from its other
26

employees. CONCLUSION In light of plaintiffs
prose status, the Court grants her thirty (30) days
leave to file an
amended complaint. Plaintiff is directed that if she
elects to file anamended complaint she must name
her former employer as a defendant. Should
plaintiff have a basis for a claim of employment 41
discrimination, she should provide facts in
support of such claim and demonstrate that she
has exhausted her administrative remedies by
filing a claim with the EEOC. If plaintiff failed to
file a claim with the EEOC or the New York State
Division of Human Rights within the 300 day filing
period she must detail any impediment that
prevented her from timely filing. Plaintiff is
further directed than any amended complaint
must comply with Rule 8(a) of the Federal Rules of
Civil Procedure and it must "plead enough facts to
state a claim to relief that is plausible on its face."
27

Twombly, 550 U.S. at 570. The amended complaint
must be captioned as an "Amended Complaint"
and bear the same docket number as assigned to
this Order. No summons shall issue at this time
and all further proceedings shall be stayed for 30
days or until further order of the Court. If plaintiff
fails to amend her complaint within 30 days of the
date that this order is entered on the docket, the
Court shall dismiss the complaint for failure to
state a claim on which relief may be granted and
judgment shall enter. If submitted, the amended
complaint will be reviewed for compliance with
this order and for sufficiency under 28 U.S.C. §
1915(e)(2)(B). The Court certifies pursuant to 28
U.S.C. § 1915(a)(3) that any appeal would not be
taken in good faith and therefore in forma pauperis
status is denied for the purpose of any appeal.
Case 1:15-cv-06475-RRM-RER
Document 4 Filed 02/01/16 Page 8 of 8 PagelD #: 22
28

Dated: Brooklyn, New york January 29, 2016 SO
ORDERED.
Roslynn R. :Mauskorpf
ROSLYNN R. MAUSKORPF United
States District Judge
29

Case 1:15-cv-06475-RRM-RER Document
69 Filed 09/27/18 Page 1 of 1 PagelD #:
970

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

LISA GINDI, Plaintiff, - against -

THOMAS BENNETT, et al.,

Defendant.

JUDGMENT

15-CV-6475 (RRM) (RER)

A Memorandum and Order of the
undersigned having been issued this day
dismissing all claims against the
defendant, and further directing the Clerk
of Court to enter judgment accordingly
and to close the case, it is hereby

ORDERED, ADJUDGED and DECREED

Page 30 ( 1 of 2 )

that plaintiff take nothing of defendant,
that all claims brought by plaintiff as
against defendant are dismissed, and that
this case is hereby closed.

Dated: Brooklyn, New York September 26,
2018

SO ORDERED.

Roslynn R. Mauskopf

ROSLYNN R. MAUSKOPF United States
District Judge

Page 30 ( 2 of 2)

Case 1:15-cv-06475-RRM-RER Document 68 Filed
09/27/18 Page 1 of 9 PagelD #: 961
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X LISA GINDI,

Plaintiff,

- against - THOMAS BENNETT, et al.,

Defendant.
X

MEMORANDUM AND ORDER

15-CV-6475 (RRM) (RER)

ROSLYNN R. MAUSKOPF, United States District
Judge.
Plaintiff Lisa Gindi, pro se, filed the instant
complaint alleging violations of Title VII of

31

the Civil Rights Act of 1964, 42 U.S.C. § 2000e et
seq. ("Title VII"), the Age Discrimination in
Employment Act, 29 U.S.C. § 621 et seq. ("ADEA"),
and the Americans with Disabilities Act, 42 U.S.C. §
12101 et seq. ("ADA"). By Order dated February 1,
2016, the Court granted Gindi's request to proceed
in forma pauperis, pursuant to 28 U.S.C. § 1915,
and granted leave to file an amended complaint.
(Doc. No. 4.) On February 12, 2016, Gindi submitted
an amended complaint which was reviewed for
sufficiency under 28 U.S.C. § 1915(e)(2)(B). (Doc.
No. 5.) By Order dated April 13, 2016, the Court
granted Gindi leave to submit a second amended
complaint and provided specific guidance regarding
the filing of that amendment. (Doc. No. 6.)

On April 29, 2016, Gindi filed her second amended
complaint. (Doc. No. 7.) By Order dated June 20,
2016, the Court dismissed all of Gindi's claims

32

except for those brought against the New York
Department of Education ("DOE"). (Doc. No. 12.)

Subsequently, the DOE filed a motion to dismiss
asserting that Gindi's claims are time barred, and in
any event, are not sufficient, pursuant to Federal
Rule of Civil Procedure ("Rule") 12(b)(6), and a
motion to strike a photograph filed by Gindi. (Doc.
No. 44.) For the reasons below, the DOE's motion to
dismiss is granted. The Court does not reach the
motion to strike.

Case 1:15-cv-06475-RRM-RER Document 68 Filed
09/27/18 Page 2 of 9 PagelD #: 962
BACKGROUND

The Court presumes familiarity with the underlying
facts of this case, as set forth in this Court's
previous decisions. In brief, Gindi's second amended
complaint alleges that she was employed as a
teacher for many years and that her employment

33

was terminated because she is a woman and suffers
from a mental disability. Her previous complaints
also contained allegations that she was
discriminated against because she is older, white,
and Jewish.

STANDARD OF REVIEW

To survive a Rule 12(b)(6) motion, "a complaint
must contain sufficient factual matter, accepted as
true, to 'state a claim to relief that is plausible on its
face."' Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007)). A complaint need not contain "detailed
factual allegations," but it must contain "more than
an unadorned, the-defendant-unlawfully-harmedme accusation." Iqbal, 556 U.S. at 678 (quoting
Twombly, 550 U.S. at 555). The plaintiffs complaint
must include "enough facts to state a claim to relief

34

that is plausible on its face." Twombly, 550 U.S. at
570. "A claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged." Iqbal, 556 U.S.
at 678 (citing Twombly, 550 U.S. at 556). The
determination of whether "a complaint states a
plausible claim for relief will...be a context-specific
task that requires the reviewing court to draw on its
judicial experience and common sense." Iqbal, 556
U.S. at 679 (citing Iqbal v. Hasty, 490 F.3d 143,
157-58 (2d Cir. 2007)).

It is axiomatic that a "document filed pro se is to be
liberally construed and a pro se complaint, however
inartfully pleaded, must be held to less stringent
standards than formal pleadings drafted by
lawyers." Boykin v. KeyCorp, 521 F.3d 202, 214 (2d

35

Cir. 2008) (internal Case 1:15-cv-06475-RRM-RER
Document 68 Filed 09/27/18 Page 3 of 9 PagelD #:
963 quotation marks omitted). The.Court must
construe a pro se complaint with "special solicitude,"
and interpret it to raise the strongest arguments it
suggests. Triestman v. Fed. Bureau of Prisons, 470
F.3d 471, 474-75 (2d Cir. 2006) (quoting Ruotolo v.
I.R.S., 28 F.3d 6, 8 (2d Cir. 1994)). Even so, "a pro se
complaint must state a plausible claim for relief."
Hogan v. Fischer, 738 F.3d 509, 515 (2d Cir. 2013).
Moreover, a pro se party is "not exempt...from
compliance with relevant rules of procedural and
substantive law." Triestman, 470 F.3d at 477
(internal quotations omitted).

DISCUSSION
I. Gindi's Title VII, ADEA and ADA Claims are
Time-Barred Generally, a claimant may bring suit
in federal

36

court under the ADEA, Title VII, and the ADA only
after filing a timely complaint with the EEOC.
Floyd v. Lord & Taylor, 96 F. App'x 792, 793 (2d Cir.
2004) (upholding dismissal of a complaint where
plaintiff failed to submit any documentation
showing that she had filed a complaint with the
EEOC, a "prerequisite to bringing suit in federal
court under Title VII, the ADEA, and the ADA"). To
be deemed timely, the administrative claim must be
filed with the EEOC or the state agency within 300
days of the alleged discriminatory conduct. 42
U.S.C. § 2000e-5(e); 29 U.S.C. § 626(d)(1); Kassner v.
2d Ave. Delicatessen Inc., 496 F.3d 229, 237 (2d Cir.
2007). This is true even of pro se litigants. Tanvir v.
New York City Health & Hosps. Corp., 480 F. App'x
620, 621 (2d Cir. 2012).

Nevertheless, because the administrative
exhaustion requirement is not jurisdictional, "it is

37

subject to equitable defenses." Fowlkes v.
Ironworkers Local 40, 790 F.3d 378, 384 (2d Cir.
2015). These doctrines should be applied
"sparingly," however. Nat'l R.R. Passenger Corp. v.
Morgan, 536 U.S. 101, 113 (2002). The continuing
violation doctrine allows courts to hear claims
otherwise time barred when the plaintiff has
experienced a "continuous practice and

Case 1:15-cv-06475-RRM-RER Document 68 Filed
09/27/18 Page 4 of 9 PagelD #: 964
policy of discrimination." Fitzgerald v. Henderson,
251 F.3d 345, 359 (2d Cir. 2001); see also Lambert v.
Genesee Hospital, 10 F.3d 46, 53 (2d Cir. 1993)
("Under the continuing violation exception to the
Title VII limitations period, if a Title VII plaintiff
files an EEOC charge that is timely as to any
incident of discrimination in furtherance of an
ongoing policy of discrimination, all claims of acts of

38

discrimination under that policy will be timely even
if they would be untimely standing alone.").
However, "discrete discriminatory acts" — including
"termination, failure to promote, denial of transfer,
or refusal to hire" — "are not actionable if time
barred, even when they are related to acts alleged in
timely filed charges." Nat'l R.R. Passenger Corp.,
536 U.S. at 113-14.

Gindi filed a charge of discrimination with the
EEOC on December 2, 2015. (Defs Ex. D (Doc. No.
45-4).) Therefore, any claims based on acts
discrimination that occurred prior to February 5,
2015, 300 days earlier, are barred. Here, all of.
Gindi's claims of discrimination by the DOE
occurred before February 5, 2015.

Gindi argues that the discrimination she suffered

"was continual and ongoing," which the Court
39

interprets as an argument that there was a
continuing violation, and therefore, her complaint
was timely. (Response in Opposition. (Doc No. 46) at
12.) However, the "continuing violation" doctrine
applies only to cases where there are specific
discriminatory "policies Or mechanisms" being
employed by the defendant. Valtchev v. City of New
York, 400 F. App'x 586, 588 (2d Cir. 2010). Multiple
similar incidents of discrimination, without a policy
or mechanism, do not amount to a continuing
violation. Id.

Gindi makes no factual allegations that could be
interpreted as alleging a policy or mechanism
constituting a continuing violation. Instead, Gindi
appears to argue that her discrimination was

40

"ongoing and continuous" because of a single event
that occurred after

Case 1:15-cv-06475-RRM-RER Document 68
Filed 09/27/18 Page 5 of 9 PagelD #: 965
February 5, 2015. Specifically, she alleges that on
March 23, 2016, New York City assistant counsel
John P. Guyette aggressively shook her hand,
hurting her. (Brief (Doc. No. 51) at 4.) This
allegation in no way relates to a course of
discriminatory conduct, nor does Gindi allege that it
was motivated by discriminatory intent. Therefore,
it does not save the untimeliness of her claims
against the DOE.

II. Sufficiency of the Pleading

41

In addition to being time-barred, Gindi's second
amended complaint also fails to plead sufficient
facts to state a cause of action for employment
discrimination under Title VII, the ADEA, or the
ADA.

a. Plaintiff's Title VII Claims

Title VII prohibits an employer from discriminating
against any individual with respect to
"compensation, terms, conditions, or privileges of
employment, because of such individual's race, color,
religion, sex or national origin." 42 U.S.C. § 2000e2(a)(1). To establish a prima facie case of
discrimination, a plaintiff must show that: (1) she is
a member of a protected class, (2) she was qualified
for the position she held, and (3) she suffered an
adverse employment action (4) under circumstances

42

giving rise to an inference of discrimination. Brown
v. City of Syracuse, 673 F.3d 141, 150 (2d Cir. 2012);
Sethi v. Narod, 12 F. Supp. 3d 505, 522 (E.D.N.Y.
2014). The plaintiff must plausibly allege facts that
establish that the adverse employment action was
taken because of her membership in a protected
class. Vega v. Hempstead Union Free Sch. Dist., 801
F.3d 72, 87 (2d Cir. 2015). However, "the evidence
necessary to satisfy the initial burden of
establishing that an adverse employment action
occurred under circumstances giving rise to an
inference of discrimination is minimal." Littlejohn v.
City of New York, 795 F.3d 297, 313 (2d Cir. 2015).

Case 1:15-cv-06475-RRM-RER Document 68 Filed
09/27/18 Page 6 of 9 PagelD #: 966
Although Gindi explains that she is a white, Jewish
woman, and that she was fired, she fails to allege

43

circumstances that could give rise to an inference of
discrimination. Gindi does allege numerous acts of
what she perceived to be discrimination against her,
however, the link between her membership in a
protected class and the alleged discrimination is
entirely conclusory. Her complaint fails to set forth
sufficient facts — indeed, she fails to allege any facts
— from which the Court could infer that any adverse
employment action was taken because of her
protected status. See Vega, 801 F.3d at 87;
Littlejohn, 795 F.3d at 313.

b. Plaintiff's ADEA Claims

The ADEA establishes that it is "unlawful for an
employer...to discharge any individual or otherwise
discriminate against any individual with respect to
his compensation, terms, conditions or privileges or
employment, because of such individual's age." 29

44

U.S.C. § 623(a)(1). In order to establish a prima facie
case of age discrimination in violation of the ADEA,
plaintiff must show that: (1) she was within the
protected age group (more than 40 years old); (2) she
was qualified for her position; (3) she experienced
adverse employment action; and (4) such action
occurred under circumstances giving rise to an
inference of discrimination. Gorzynski v. Jet Blue
Airways Corp., 596 F.3d 93, 107 (2d Cir. 2010)
(citing Carlton v. Mystic Transp. Inc., 202 F.3d 129,
134 (2d Cir. 2000)).

In support of her ADEA age discrimination claim,
Gindi alleges that she is a member of a protected
age group, but does not plead any facts to support
an inference that the DOE discriminated against
her because of her age. At a minimum, an ADEA

45

claimant must inform the Court and the defendant
why she believes age discrimination existed. See
Dugan v. Martin Marietta Aerospace, 760 F.2d 397,
399 (2d Cir. 1985) ("While a claim made under the
ADEA

Case 1:15-cv-06475-RRM-RER Document 68 Filed
09/27/18 Page 7 of 9 PagelD #: 967

need not contain every supporting detail, it must at
least inform the court and the defendant generally
of the reasons the plaintiff believes age
discrimination has been practiced."); GallopLaverpool v. 1199 SEIU United Healthcare Workers
E., No. 14-CV-2879 (JG), 2014 WL 3897588, at *2
(E.D.N.Y. Aug. 8, 2014).

Although Gindi's original complaint at least

46

asserted that she is more than 40 years of age,
which is insufficient on its own to state a claim
under the ADEA, her second amended complaint
fails to allege even that. With no additional facts
suggesting that she suffered an adverse employment
action because of her age, Gindi has failed to state
claim under the ADEA.

c. Plaintiff's ADA Claims

To establish a prima facie case of discrimination
under the ADA, a plaintiff must show that "(1) the
defendant is covered by the ADA; (2) plaintiff suffers
from or is regarded as suffering from a disability
within the meaning of the ADA; (3) plaintiff was
qualified to perform the essential functions of the
job, with or without reasonable accommodation; and
(4) plaintiff suffered an adverse employment action

47

because of [her] disability or perceived disability."
Capobianco v. City of New York, 422 F.3d 47, 56 (2d
Cir. 2005); Ugactz v. United Parcel Serv., Inc., No.
10-CV-1247 (MKB), 2013 WL 1232355, at *7
(E.D.N.Y. Mar. 26, 2013).

Here, Gindi asserts that the nature of her disability
is "PTSD, anxiety, panic, fear and nervous mood," as
well as what she believes is a mistaken diagnosis of
bi-polar disorder. (Sec. Amend. Comp. at 5, 9).
Although the plaintiff is not required to establish
discrimination at the pleading stage, she must
plausibly allege a claim upon which relief can be
granted. Vega v. Hempstead Union Free Sch. Dist.,
801 F.3d 72, 86-87 (2d Cir. 2015). Even under the

48

most liberal construction, the complaint provides no
facts that could possibly connect any adverse
employment action to a protected status. Gindi does
not allege that she was terminated because

Case 1:15-cv-06475-RRM-RER Document 68 Filed
09/27/18 Page 8 of 9 PageID #: 968

of any of these disabilities, but appears to list them
as harms she suffered at the hands of the defendant.
Thus, Gindi has failed to state a claim under the
ADA. See Ruston v. Town Bd. of Skaneateles, 610
F.3d 55, 59 (2d Cir. 2010) ("Under Iqbal, factual
allegations must be sufficient to support necessary
legal conclusions," and must "plausibly suggest an
entitlement to relief.").

49

III. Motion to Strike

Under Rule 12(f), a court may strike from a pleading
"any redundant, immaterial, impertinent, or
scandalous matter." Fed. R. Civ. P. 12. Whether to
grant a motion to strike is within the district court's
discretion. E.E.O.C. v. Bay Ridge Toyota, Inc., 327
F. Supp. 2d 167, 170 (E.D.N.Y. 2004). "To prevail on
a 12(f) motion, the moving party must demonstrate
that: (1) no evidence in support of the allegations
would be admissible; (2) that the allegations have no
bearing on the issues in the case; and (3) that to
permit the allegations to stand would result in
prejudice to the movant." Brady v. Basic Research,
L.L.C., 101 F. Supp. 3d 217,. 225 (E.D.N.Y. 2015)
(internal quotations omitted).

Here, the DOE moves to strike a photograph of

50

Assistant Corporation Counsel John P. Guyette that
Gindi included in two of her filings. (Doc. Nos. 36,
37.) The photographs each bear the same
handwritten comment by Gindi accusing Guyette of
injuring her hand during a handshake. Because
Guyette was dismissed as a defendant, these
allegations are immaterial. As such, the Court does
not reach the DOE's motion.

IV. Leave to Amend

Although typically the Court allows pro se plaintiffs
an opportunity to amend their complaints, it need
not afford that opportunity where it is clear that any
attempt would be futile. See Cuoco v. Moritsugu, 222
F.3d 99, 112 (2d Cir. 2000) (denying leave to amend
a pro se complaint where amendment is futile). To
date, Gindi has filed three versions of her complaint,
Case 1:15-cv-06475-RRM-RER Document 68 Filed
09/27/18 Page 9 of 9 PagelD #: 969

51

none of which has presented any facts giving rise to
a valid claim. Furthermore, even if Gindi were to
file an amendment more clearly articulating the
facts underlying her allegations, her claims would
still be time-barred. Therefore, granting leave to
amend would be futile in this case.

CONCLUSION

For these reasons, the defendant's motion to dismiss
(Doc. No. 44) is granted.

The Court certifies pursuant to 28 U.S.C. §
1915(a)(3) that any appeal from this order would not
be taken in good faith and therefore in forma
pauperis status is denied for purpose of an appeal.
See Coppedge v. United States, 369 U.S. 438, 444-45
(1962).

52

The Clerk of Court is directed to enter judgment
pursuant to this Order, and to close the case. The
Clerk or Court is further directed to mail a copy of
this Memorandum and Order and the accompanying
judgment to pro se plaintiff Lisa Gindi, and note the
mailing on the docket.

Dated: Brooklyn, New York September 26, 2018

SO ORDERED.

Roslynn R. Mauskopf

RO SLYNN
R. MAUSKOPF
United States District Judge

53

UNITED STATES COURT OF
APPEALS FOR THE

SECOND CIRCUIT

At a Stated Term of the United States
Court of Appeals for the Second Circuit,
held at the Thurgood Marshall United
States Courthouse, 40 Foley Square, in
the City of New York, on the 24th day of
October, two thousand nineteen.

Before: John M. Walker, Jr., Raymond J.
Lohier, Jr., Susan L. Carney,

Circuit Judges.

Lisa Gindi,

Plaintiff - Appellant

v.
New York City Department of Education

54

Defendant - Appellee.

ORDER

Docket No. 18-3057

Appellant, pro se, moves to recall the
mandate and for leave to amend the
motion to recall the mandate.

IT IS HEREBY ORDERED that the
motions are DENIED.

For the Court:

Catherine O'Hagan Wolfe, Clerk of Court

55

